<html>
<title> - CRITICAL BUDGET ISSUES AFFECTING THE 2010 CENSUS, PART 2</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





        CRITICAL BUDGET ISSUES AFFECTING THE 2010 CENSUS, PART 2

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2008

                               __________

                           Serial No. 110-125

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                   U.S. GOVERNMENT PRINTING OFFICE
47-525 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001






              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 30, 2008....................................     1
Statement of:
    Murdock, Steven H., Director, U.S. Bureau of the Census; 
      Kenneth Prewitt, Carnegie professor of public affairs, 
      School of International and Public Affairs, Columbia 
      University and former Director, U.S. Bureau of the Census; 
      Marvin Raines, former Associate Director for Field 
      Operations, U.S. Bureau of the Census; and Glenn Himes, 
      executive director, Civilian Agencies, the MITRE Corp......     5
        Himes, Glenn.............................................    26
        Murdock, Steven H........................................     5
        Prewitt, Kenneth.........................................    10
        Raines, Marvin...........................................    17
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Murdock, Steven H., Director, U.S. Bureau of the Census, 
      prepared statement of......................................     7
    Prewitt, Kenneth, Carnegie professor of public affairs, 
      School of International and Public Affairs, Columbia 
      University and former Director, U.S. Bureau of the Census, 
      prepared statement of......................................    12
    Raines, Marvin, former Associate Director for Field 
      Operations, U.S. Bureau of the Census, prepared statement 
      of.........................................................    19

 
        CRITICAL BUDGET ISSUES AFFECTING THE 2010 CENSUS, PART 2

                              ----------                              


                        WEDNESDAY, JULY 30, 2008

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay and Yarmuth.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Alissa Bonner and Michelle Mitchell, professional 
staff members; Charisma Williams, staff assistant; Dorian 
Rosen, intern; Benjamin Chance and Molly Boyl, minority 
professional staff members; and John Cuaderes, minority senior 
investigator and policy advisor.
    Mr. Clay. Good morning. The Information Policy, Census, and 
National Archives Subcommittee will come to order.
    Welcome to today's hearing entitled, ``Critical Budget 
Issues Affecting the 2010 Census, Part 2.''
    Without objection, the Chair and ranking member will have 5 
minutes to make opening statements followed by opening 
statements not to exceed 3 minutes by any other Member who 
seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    I will begin with the opening statement.
    As Congress considered the fiscal year 2008 budget 9 months 
ago, this subcommittee held a hearing to review the 
consequences of a continuing resolution on census operations. 
The issue then was whether the Census Bureau had special needs 
that would warrant an exemption or anomaly in the CR to address 
its unique circumstances.
    Last year, due to inadequate funding, the Bureau reduced 
the scope of its dress rehearsal and canceled testing for other 
important census operations.
    Today, we will examine the impact of a potential fiscal 
year 2009 CR on operational plans for the decennial census.
    As the Bureau ramps up to the 2010 census, its annual 
budget will grow exponentially. It is critical that the Bureau 
have necessary funds to complete key census operations in 
fiscal year 2009.
    Without sufficient resources, the Bureau will be unable to 
open local census offices in every Congressional District, hire 
personnel and, most importantly, they will not be able to 
conduct address canvassing. Delaying any of these operations 
will be detrimental to the decennial. Cancelling address 
canvassing will result in an incomplete and inaccurate master 
address file.
    The master address file is the data base used to mail 
census forms to every household. If we start with an inaccurate 
master address file, census accuracy is doomed. We cannot 
afford to let this happen.
    Let me thank all of our witnesses for appearing today, and 
I look forward to your testimony.
    Since Mr. Turner is not here, then we will go into 
testimony right away. Let me start by introducing our 
witnesses.
    First, we will hear from the Honorable Steven Murdock, 
Director of the U.S. Census Bureau and then from former Census 
Director, the Honorable Kenneth Prewitt. Next, we will hear 
from the Bureau's former Associate Director for Field 
Operations, Mr. Marvin Raines, and our final witness will be 
Dr. Glenn Himes, executive director of the MITRE Corp., 
Civilian Agencies Mission.
    Thank you all for appearing before the subcommittee today 
and welcome.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative.
    I ask that each witness now give a brief summary of their 
testimony and please limit your summary to 5 minutes. Your 
complete written statement will be included in the hearing 
record.
    Dr. Murdock, you may start us off.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
 STATEMENTS OF STEVEN H. MURDOCK, DIRECTOR, U.S. BUREAU OF THE 
CENSUS; KENNETH PREWITT, CARNEGIE PROFESSOR OF PUBLIC AFFAIRS, 
SCHOOL OF INTERNATIONAL AND PUBLIC AFFAIRS, COLUMBIA UNIVERSITY 
AND FORMER DIRECTOR, U.S. BUREAU OF THE CENSUS; MARVIN RAINES, 
FORMER ASSOCIATE DIRECTOR FOR FIELD OPERATIONS, U.S. BUREAU OF 
   THE CENSUS; AND GLENN HIMES, EXECUTIVE DIRECTOR, CIVILIAN 
                   AGENCIES, THE MITRE CORP.

                 STATEMENT OF STEVEN H. MURDOCK

    Mr. Murdock. Chairman Clay, ranking member, members of the 
subcommittee, thank you for the invitation to speak with you 
today on the critical budget issues affecting the 2010 
decennial census.
    You asked that my testimony focus primarily on the amount 
of funding required to ensure that no disruption occur to 
decennial operations in the event that we are forced to operate 
under a continuing resolution in fiscal year 2009 that begins 
October 1st. That is just 2 months from now, and it is a 
significant concern for us.
    We have been working diligently to get the infrastructure 
in place to conduct the most accurate and complete census 
possible. We have made considerable progress toward that end in 
getting our field data collection automation contract on track 
and assuring that our other contracts are operating as 
expected.
    All systems are on track for rolling out our early local 
census offices and for getting them staffed up for address 
canvassing. Our integrated communications program is moving 
forward on schedule. We are in the process of getting all of 
our partnership specialists in place to begin their outreach 
efforts, and all of these efforts are critical to a successful 
census.
    However, without adequate funding, these plans cannot move 
forward. It is imperative that the Congress support the 
President's 2009 request for the Census Bureau.
    A continuing resolution that freezes funding at levels of 
the previous year can present serious difficulties for the 
decennial census program. This is because, as you well know, 
our cyclical budget needs serially increase in the years 
leading up the decennial census and decline thereafter. 
Difficulties most often come up in years ending in nine and 
zero, the years before and during the decennial census.
    By the end of fiscal year 2009, only 6 months will remain 
until census day, April 1, 2010. Clearly, operations and 
infrastructure not fully in place at that time would seriously 
compromise their operation.
    The President's budget for the Census Bureau in fiscal year 
2009 is more than two times the current funding level, at 
almost $3.1 billion. This is compared with $1.4 billion in 
fiscal year 2008.
    Most of this increase is for implementation of the 2010 
decennial census program, the cost of which nearly triples from 
$1 billion in fiscal year 2008 to $2.7 billion in fiscal year 
2009. So, as you can see, a CR that freezes our budget at the 
fiscal year 2008 level would make it very difficult for the 
Census Bureau to conduct operations critical a successful 2010 
census.
    For example, by October 1, 2008, the Census Bureau must 
begin opening, equipping and staffing 150 early local census 
offices around the country that will serve as the field offices 
for managing address canvassing operations.
    The early months of fiscal year 2009 are extremely critical 
to completing final development and testing of equipment and 
software to be used in address canvassing as well as the 
operations control systems that manage the entire operation.
    Finally, we will also begin hiring partnership specialists 
in our core group of 680 field partnership specialists which we 
hope to have onboard by January 2009.
    Communications activities such as support of the 
Partnership Program, creative development and testing, public 
relations development, the Census in School programs and 
outreach must continue.
    Let me clear that we at the Census Bureau, the Department 
of Commerce and the administration more broadly are all aware 
of challenges that a multi-month continuing resolution would 
present to the 2010 census program. We are currently analyzing 
potential impacts and developing spend plans in case agreement 
has not been reached on such bills by the beginning of the 
upcoming fiscal year.
    While we have not yet finalized this work, the 
administration understands the situation and is committed to 
ensuring that we have a successful, accurate census in 2010.
    I will be happy to take any questions that you may have.
    [The prepared statement of Mr. Murdock follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Dr. Murdock.
    Dr. Prewitt, you may begin with your opening statement.

                  STATEMENT OF KENNETH PREWITT

    Mr. Prewitt. Thank you, Congressman Clay.
    I think that there is probably no hearing in the run-up to 
the census which is as critical as this one on the simple 
principle that no money, no census.
    Money, I think, in this conversation has to mean three 
things: adequate money, timely money and flexible money. It is 
maximizing all three of those principles which we believe made 
the 2000 census successful.
    I am going to talk a bit about the 2000 census because that 
is what I can offer to this conversation, what worked and what 
did not work in 2000.
    It has been generally described as a very successful 
census, not by me. It is not my right to claim that. However, I 
would like to say the Bush administration, even though the 
census was conducted under the Clinton administration, the Bush 
administration, in the presence of Secretary Evans speaking 
before the Senate, described it as the most accurate census 
this Nation has ever conducted.
    We take that as high praise from an administration that 
wasn't always, from a party that wasn't always in line with the 
way we were trying to do the census in 2000. But I just want to 
stress the way in which we think that happened.
    Just like this census, before we really got started, we 
were under a lot of pressure. It was thought that we would not 
have a good census. We had enormous critical oversight not just 
by the subcommittee, of course, as it should have been, but 
also by the GAO, by the IG, by the Congressional Monitoring 
Board.
    GAO, for example, had us as high risk, starting as early as 
1997 and never took us off their high risk list.
    In this environment, we did well. We reversed the decline 
in mail-back response rate, which was critical.
    More importantly, we drove down the under-count. The number 
of missed persons was reduced dramatically from an earlier 
census, and we reduced the differential under-count. That is we 
counted proportionally, racial minorities, the unemployed, the 
less well educated, the undocumented much better than we ever 
had in previous censuses.
    So I am happy to say, and Marvin Raines knows why it works 
because he was there making it work, that we are proud of what 
was accomplished in 2000.
    The question is how did it happen, and it happened because 
the Congress really was on the mark with respect to the funding 
strategy: supplemental funding, emergency funding, certainly an 
anomaly on continuing resolutions.
    As we know, governments frequently find themselves in the 
CR world, and you can't do a census, as the Director just said, 
under a CR that flat-funds you when things are wrapping up and 
as your own opening comment made clear.
    We did not have that problem in 2000, and that made a huge 
difference. The Clinton administration put a lot of high level 
attention to getting the census underway, but the U.S. 
Congress, including a Republican-controlled subcommittee, was 
equally engaged in making sure.
    Now I don't want to gloss over problems, and we had 
problems in 2000.
    You certainly have run into some difficulties getting ready 
for the 2010 census with the Harris thing and the management 
problems and so forth. We are all familiar with those. You have 
already had your hearings on that. But that is behind us.
    The Director has a plan in place right now, but this plan 
can't happen without the three dimensions of funding I just 
mentioned: adequacy, timeliness and flexibility.
    Flexibility is important. You are going to run into the 
unexpected, and you have to be able to move money around, to 
move personnel around to sort of deal with some of those 
unexpected circumstances.
    I think a fact that is sometimes overlooked about the 2000 
census is that, at the end of the day, we returned over $300 
million to the U.S. Treasury. We came in under budget. That is 
we produced a census, a good census on schedule and under 
budget. That would not have happened without really successful 
cooperation by the Congress.
    So I compliment you on this hearing today. I will be 
delighted, of course, to answer questions, but I think your 
focus on the fact of what damage the flat funding could do as 
you enter the 2009 fiscal year is extremely important.
    Thank you.
    [The prepared statement of Mr. Prewitt follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Dr. Prewitt.
    Mr. Raines, you may begin your opening statement.

                   STATEMENT OF MARVIN RAINES

    Mr. Raines. Chairman Clay, it is an honor and distinct 
pleasure to appear before you today to share my thoughts on the 
impact of a continuing resolution on the ability of local and 
regional staff to conduct a complete and accurate 2010 census.
    My testimony today from the perspective gained during my 
tenure as Associate Director for Field Operations will 
hopefully provide context for your discussion and 
deliberations.
    There are a number of issues that I feel should be 
addressed, but two are the most important for field operations. 
They are the importance of local census offices and the 
importance of reaching the hard to enumerate populations.
    Any interruptions of funding, changes in resource or 
schedule modifications would negatively impact each of areas as 
well as others that are mentioned in my written testimony.
    A local census office is one of the basic building blocks 
for all of field operations. Approximately 500 LCLs must be 
leased, furnished and staffed for the decennial census. The 
leasing process is essential, and the space must meet size, 
safety, transportation and local requirements to optimally 
satisfy the needs of each region.
    After a lease is signed, each LCL may require three to 6 
months to become field operational. Each office has electrical, 
telecommunications, security and special field infrastructure 
needs and must pass a comprehensive checklist prior to becoming 
and being declared operational.
    A continuing resolution delaying the opening of LCLs would 
have a domino effect throughout all of field operations and 
would adversely impact the success of the 2010 census.
    Another extremely important issue is addressing problems 
concerned with the historically under-counted. The most likely 
to be under-counted are minorities, the poor, individuals 
living in rural and urban areas, undocumented immigrants, the 
transient and homeless and children.
    Those under-counted have been divided into two basic 
categories: hard to count and hardest to count. Typically the 
hard to count are those considered apathetic, uninformed, 
misinformed or disinterested in participating. The hardest to 
count are individuals with some barrier that prevents them from 
participating in the census such as those with language 
isolation or literacy challenges.
    From my census 2000 experience, I learned that the 
Partnership Program is one of the most effective means of 
reaching the hard to count and the hardest to count. 
Groundwork, networks and trust must be established in 
challenging communities and reestablished in others to engage 
the right partner or community leader to join in efforts to 
count everyone.
    In conclusion, I realize from firsthand experience that 
planning and implementing a decennial census is complex, time-
consuming and rewarding.
    However, in order to get to the part that is rewarding, you 
must endure and work through the complex, challenging and time-
consuming parts. To do that, the Census Bureau staff needs 
adequate resources and support to move completely into 
decennial operations and programs without delay.
    As proud as I am of our work during the 2000 census, I am 
more proud of the quality and integrity of the data that was 
collected. The public deserves the Bureau's highest and best 
service, and local communities depend on the accuracy and 
completeness of that data.
    Thank you, Mr. Chairman. I hope I was able to add another 
perspective to this hearing. I am available for questions.
    [The prepared statement of Mr. Raines follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Mr. Raines. You do bring an 
interesting perspective to the hearing.
    Dr. Himes, you may finish off the testimony.

                    STATEMENT OF GLENN HIMES

    Mr. Himes. Good afternoon, Chairman Clay, and thank you for 
the opportunity you have given to the MITRE Corp. to update the 
committee on the impact of a continuing resolution on 
operational plans for the 2010 decennial census.
    The MITRE Corp. is a not for profit organization chartered 
to work in the public interest. MITRE manages three federally 
funded research and development centers: one for the Department 
of Defense, one for the Federal Aviation Administration and one 
for the Internal Revenue Service.
    Governed by Part 35.017 of the Federal Acquisition 
Regulations, federally funded research and development centers 
operate in the public interest with objectivity, independence, 
freedom from conflict of interest and full disclosure of their 
affairs to the respective government sponsors.
    It continues to be our privilege to serve with the talented 
engineers and other professionals who support the Census Bureau 
in its efforts to prepare and conduct the 2010 decennial 
census.
    We are pleased to report that since MITRE's last appearance 
before this committee on June 11th, the Bureau has demonstrated 
continued improvements in managing and overseeing preparations 
for the 2010 decennial census. These improvements include an 
increase in activities to monitor program progress and to 
identify potential risks.
    Some of the highest risks to achieving a successful 
decennial census pertain to funding. If funding for the 
decennial census is delayed or insufficient, critical 
activities may be delayed or reduced in scope. Delays would 
increase the risk of accomplishing the census on time. 
Reductions in scope would increase the risk that the quality of 
the census data would not meet the needs of Congress or the 
American people.
    Finally, insufficient funding would require census managers 
and executives to perform substantial replanning and 
reprioritizing at a time when their workloads will be growing 
enormously. We remain committed to helping the Census Bureau 
prepare for a successful 2010 Decennial.
    Thank you for inviting us to this hearing. I will be happy 
to answer your questions.
    Mr. Clay. Thank you so much, Dr. Himes.
    Director Murdock, please tell the subcommittee what will 
happen if the Bureau does not receive adequate for fiscal year 
2009 and what operations will be affected.
    Mr. Murdock. Let me summarize some of those because there 
are many operations that are impacted. Among the majors of 
those, of course, is address canvassing which we must open our 
local offices in order for that to be successful.
    It is hard to overemphasize the importance of address 
canvassing. In many ways the census is a census of addresses 
from which we get households from which we get the population 
that we count for the decennial census. That particular 
operation, therefore, is critical.
    If you do not have a good address canvassing, you are not 
likely not to have a good census. So that would be the first 
major operation that would be impacted.
    Also impacted and very importantly would be our Partnership 
Program which, as you know, has been important in terms of 
reaching the very populations that Mr. Raines referred to, the 
hard to count populations.
    We are scheduled to have 680 such specialists in place by 
the beginning of next year. We now have 120. So we would be in 
the process of hiring another 560 in this interim period of 
time. Much of that would occur after the beginning of fiscal 
year 2009.
    There are certainly many others. We have contracts ongoing 
for the operation or control systems, contracts for the 
handhelds that will be used in the address canvassing. Nearly 
all of our major contracts would be negatively impacted, 
meaning nearly all of our subsequent operations related to the 
2010 census would be negatively impacted.
    So virtually all of our ongoing programs would be impacted 
and, as indicated, certainly the opening of those local census 
offices would be critical. That would not occur without those 
finances.
    Mr. Clay. That would have a detrimental effect on having an 
accurate count.
    Mr. Murdock. Yes.
    Mr. Clay. Let me followup with Dr. Himes on that.
    MITRE has done some consulting for the Bureau. Your work 
has been helpful in ensuring that proper attention is given to 
key operations.
    We have heard from Dr. Murdock what could happen if the 
Bureau does not get adequate funding for the census. Now I 
would like to get your opinion. What are the implications of 
not conducting the operations Dr. Murdock cited?
    Mr. Himes. So we would concur with what Dr. Murdock, that 
the address canvassing is really one of the key starting points 
of having a successful, accurate census.
    MITRE's involvement has been especially focused on FDCA, 
the Field Data Collection Automation, in recent months. The 
contracts to complete the infrastructure, to open the local 
census offices, to complete the handheld computers, the 
software, the testing, the training could all impacted by this.
    FDCA alone has a substantial increase in funding from 2008 
to fiscal year 2009, and obviously, there are other parts of 
the census activities as a whole that Dr. Murdock also referred 
to.
    So if they are not able to hire the people and complete the 
systems to support them, there would most likely be a delay or 
they would have to reduce the number of offices that they 
opened, and that would then have a very deleterious effect on 
the quality of the data.
    Mr. Clay. Thank you for that response.
    Mr. Raines, what is the most critical problem facing 
regional staff?
    Mr. Raines. I don't know if I can actually characterize it 
as one problem, but there are a number of different issues. All 
of them, I think, are associated with timeliness.
    Clearly, now that the new procedure that is one that will 
involve pen and paper is going to be used, I like to refer to 
the testing as there is a zero gremlin out there somewhere. 
When I say zero gremlin, what I am talking about, I remember 
when we did testing during the 2000 census.
    We could try things out for 100 people or 100 cases or 
1,000 cases, 10,000 cases. But somewhere between 10,000 and 
100,000, the zero gremlin would get in there and create 
problems, and we would have problems. When we got 100,000 
cases, somehow things would just begin to get problems. So 
testing is going to be one the major problems.
    Recruiting and the competency of staff is another one of 
those issues. Being able to have funding so that we can recruit 
the proper staff and the competency of that staff is extremely 
important.
    Mr. Clay. Thank you for that.
    Gremlin was a make of a car, I believe.
    Mr. Raines. Well, I am talking about that imaginary person 
that gets in there and causes concerns. [Laughter.]
    Mr. Clay. Thank you for that response.
    Mr. Prewitt, you are to be commended for the success of the 
2000 census, and you stated that the Census Bureau returned 
$300 million to the U.S. Treasury. I am not sure if that is 
going to happen for 2010.
    On a serious note, you talk about the proportional under-
count. With the limited time we have, let me ask you, was the 
proportional under-count consistent in all demographic groups? 
Did it go across the board and then how did you determine there 
was an over-count and an under-count?
    Mr. Prewitt. Right. Very important, Mr. Chairman, and I 
will do this quickly. We assessed the magnitude of the under-
count two different ways in 2000. One is what is called 
demographic analysis, and the other was an accuracy and 
coverage evaluation.
    Demographic analysis doesn't allow you to make fine grain 
decisions about the nature of the under-count, but the coverage 
evaluation survey did.
    What we learned in 2000 is that with exception of the Black 
population, all other racial groups were almost taken to zero. 
That is the American Indian group, the Hispanic and the Asian 
population groups, but the African American population was 
taken down close to 1 percent under-count. That is from a 
historic high of 5 percent earlier in the decade.
    We have been progressively doing better on the under-count 
but not the differential under-count, and 2000 is the first 
census where we made real cutting into the differential under-
count.
    We only knew that because we did a large followup survey 
called the Accuracy and Coverage Evaluation Survey which 
allowed us to measure the magnitude of how well we had done on 
the differential under-count.
    Mr. Clay. Thank you for that response.
    Mr. Yarmuth is recognized.
    Mr. Yarmuth. Thank you, Mr. Chairman. I just have one 
question.
    Dr. Prewitt, when you had to prepare for the 2000 census in 
a relatively time because of the Supreme Court decision, how 
would you evaluate how important funding was in the years 
leading up to the census as opposed to the actual year of the 
census?
    Mr. Prewitt. Well, you are quite right. We had a bad patch. 
When I got there, we weren't clear what kind of census we can 
do. We didn't even know for the first 4 or 5 months what kind 
of census design we would have.
    So enormous work had to happen after the Supreme Court 
decision to reconfigure the apparatus around what we call the 
traditional census.
    However, what we did not have to deal with were the kind of 
problems that the Director and Marvin Raines just discussed. 
The local offices were open. We were staffing them up. We had 
an advertising campaign that was ready to go. We had hired the 
partners.
    All of the kind of apparatus we needed to make the new 
design work was in place. We had a lot of design work to do, 
but we did not have a staffing up preparation.
    This is a much worse situation. A flat funding in fiscal 
year 2009 of even for 3 or 4 or 5 months is a much worse 
situation than what we had in 2000 with the Supreme Court 
delay.
    Mr. Yarmuth. I think that is what we are all concerned 
about. We are really in a very critical juncture right now, 
that what we do now will affect the integrity of the census in 
2010. It is clear that we need to make sure that there are 
adequate resources right now.
    Mr. Prewitt. Yes. The issue is timeliness more than the 
amount right now.
    Mr. Yarmuth. Thank you. That is all, Mr. Chairman.
    Mr. Clay. Thank you, Mr. Yarmuth.
    I saw Dr. Himes with this curious look on his face when the 
bells were going off. The bells announced the beginning of a 
series of votes.
    So we will conclude this hearing. It will probably be one 
of the shortest in the history of this institution. But I would 
like to make one final point before concluding.
    As Chair of this subcommittee, I am committed to ensuring 
that there is adequate funding in fiscal year 2009 for the 
Census Bureau to carry out effective and efficient operations 
for the 2010 decennial census, and I am working with the House 
leadership to bring this to fruition.
    It is the expectation of this subcommittee that we will 
have the full and complete cooperation of the administration, 
the Commerce Department and the Census Bureau. This includes 
being honest with Congress about operational problems and 
funding needs before they become catastrophes.
    Director Murdock, I trust that we can count on you and your 
team to fulfill this obligation.
    Mr. Murdock. Absolutely, Mr. Chairman, and we are very 
grateful for your efforts on behalf of the Census Bureau.
    Mr. Clay. Thank you so much.
    Mr. Yarmuth, if you have any closing remarks.
    Mr. Yarmuth. Just that I appreciate all your work and your 
testimony. It is something that we need to get right, and I 
appreciate your input into the discussion.
    Mr. Clay. Thank you so much.
    Without objection, the committee stands adjourned.
    [Whereupon, at 2:34 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
